                                   ADVISORY




  CIVIL PENALTY SHARING
  PROVISIONS OF 30 U.S.C. § 1736
  FOR FEDERAL OIL AND GAS




Report No.: CR-MA-ONRR-0003-2012    April 2012
                    OFFICE OF
                   INSPECTOR GENERAL
                   U.S.DEPARTMENT OF THE INTERIOR

                                                                                                       MAY 0 1 2012
Memorandum

To:                  RheaS. Suh
                     Assistant Secretary, Policy, Management and Budget

From:                Mary L. Kendall .'
                                        1..._
                                                                                 fdP
                     Acting Inspector General

Subject:             Management Advisory- Civil Penalty Sharing Provisions of 30 U.S.C. § 1736
                     for Federal Oil and Gas Leases
                     Report No.: CR-MA-ONRR-0003-2012

         In November 2011, the Office ofNatural Resources Revenue (ONRR) requested a
meeting with the Office of Inspector General to discuss how to comply with the civil penalty
sharing provision of 30 U.S.C. § 1736. This provision applies to ONRR's agreements to have
States and Tribes conduct royalty audits of Federal and Indian oil and gas lessees 1 within their
jurisdictions. It calls for ONRR to provide States and Tribes 50 percent of any civil penalties that
result from this audit work and to reduce by a corresponding amount the funding that ONRR
gives the States or Tribes to conduct the royalty audits.              '

        Despite this requirement, State and Tribal audit organizations have asked ONRR not to
share the penalty money with their respective State or Tribe because of their concerns that doing
so would result in the elimination of the funding for their audit work. ONRR now owes State and
Tribal governments a total of$441,000 in penalties (dating back to May 2006).

        ONRR is taking steps to implement § 1736, but, like the State and Tribal audit
organizations, it is concerned that the penalty sharing requirement could lead to a loss of funding
for those audit programs-a problematic outcome, since these royalty audits play a key role in
identifying the violations that result in civil penalties.

        We support ONRR's efforts to comply with§ 1736 and understand its concerns about the
impact a reduction in obligated funds could have on State and Tribal audit programs. We make
several recommendations to the Department to help ONRR address these concerns while
correctly and effectively implementing the penalty sharing requirement of§ 1736.

Background

        The Federal Oil and Gas Royalty Management Act of 1982, for Federal and Indian oil
and gas leases, and 30 U.S.C. § 196 authorize the Department to allow States and Tribes to carry
out various types of regulatory activities, including audits, inspections, and investigations, within

1
  In 1991 , Congress also authorized the Secretary to delegate audit, investigation, and inspection authority to States for solid
mineral, geothermal, and Section 8(g) leases. Pub. L. 102-154, 105 Stat. 1001 (1991) (codified at 30 U.S.C. § 196).




                                            Office of Inspector General I Washington, DC
their jurisdictions. The Department authorizes and fully funds this audit work by entering into
cooperative agreements with Tribes or by delegating audit authority to States.

        Under §1736, the Department must pay the States or Tribes 50 percent of any civil
penalties collected as a result of their audit work under cooperative or delegation agreements.
The statute also states that the Department must subtract the penalty money it owes a State or
Tribe from the amount it has obligated to fund this audit work. For example, if a State has an
agreement with ONRR that calls for ONRR to pay the State $1 million for the State’s work
auditing Federal lessees, and the resulting work by the State causes ONRR to pay it $500,000 in
civil penalties under §1736, then ONRR would also subtract $500,000 from the $1 million
agreement. This would result in the State receiving only half of the direct funding originally
agreed to. Civil penalty sharing could conceivably result in an audit agreement’s direct funding
being reduced to zero as penalties are shared with the State or Tribe.

        Although ONRR understands that it must begin to comply with §1736, ONRR and the
affected State and Tribal audit agencies are concerned that the requirement to reduce funding
will mean the audit work ONRR contracts for will not be fully funded. Specifically, their
concern is that State and Tribal governments may divert the civil penalty money they collect
through this provision to meet other needs rather than use the money to fund the ONRR-
delegated audit programs. ONRR is currently considering how best to implement §1736.

ONRR’s Current Actions and Remaining Issues

        ONRR told us it agrees that §1736 requires civil penalty sharing and that the audits
conducted by States and Tribes under agreements and delegations qualify them to share any
resulting civil penalties. ONRR has also taken the following actions to begin to address penalty
sharing and its potential impacts:

       •   ONRR has researched civil penalty actions resulting from State and Tribal audits
           dating back to fiscal year 2000 and identified 21 cases with total civil penalties of
           $1.354 million, of which the potential sharing liability would be $677,000.
       •   ONRR believes there is a 6-year statute of limitations related to §1736, and has
           applied this limitation back to 2006 and concluded the potential sharing liability to be
           $441,000.
       •   ONRR has identified six ongoing civil penalty cases that would require payment to be
           made to the respective State or Tribal government. These cases have potential civil
           penalties totaling $6.84 million; resulting in a potential sharing liability of
           $3.42 million.

       As we have noted, civil penalty sharing may result in an audit agreement’s direct funding
being reduced substantially as ONRR shares penalties with a State or Tribe. In its fiscal year
2013 budget justification, the Department proposes language that would eliminate this
requirement. The proposal would instead reduce the civil penalties that ONRR must share by the
amount of the applicable cooperative agreement. The proposed language reads in full:




                                                2
       SEC. 119. Section 206 of the Federal Oil and Gas Royalty Management Act of
       1982, Public Law 97-451 (30 U.S.C. 1736), as amended, is hereby amended by
       striking the second sentence and inserting in lieu thereof: “Any payments under
       this section shall be reduced by an amount equal to any payments provided or due
       to such State or Indian Tribe under the cooperative agreement or delegation, as
       applicable, during the fiscal year in which the State or Tribe receives the civil
       penalty, up to the total amount provided or due for that fiscal year.”

       ONRR is also consulting with States and Tribes on this matter; however, ONRR officials
informed us that the matter has become more urgent as a result of ONRR’s increased emphasis
on royalty enforcement activities and pending large civil penalty actions. They also told us that
concern over this issue has had a chilling effect on the collaborative working relationships
between the States’ and Tribes’ audit teams and ONRR’s Office of Enforcement, leading to a
noticeable decrease in enforcement referrals.

Recommendations

       We recommend the Department—

       1. Support ONRR and work with Congress to address the concerns ONRR has over the
          impact of §1736 in order to find a permanent solution to this issue through legislative
          amendment.

       2. Work with States, Tribes, and the Office of the Solicitor to comply with the civil
          penalty sharing requirements of §1736 without jeopardizing audit agreements.

       3. Request a Solicitor’s opinion on legal issues related to the application of statutes of
          limitations related to civil penalty sharing requirements and any other legal issues that
          arise regarding the sharing of penalties with the States and Tribes.

Conclusion

       ONRR has avoided implementation of the civil penalty sharing requirements of §1736
because of the negative impact it could have on State and Tribal audit agreements. This issue
has, however, gained in significance and potential monetary impact with the increased emphasis
on ONRR’s royalty enforcement activities and pending large civil penalty actions. Therefore, the
Department must act promptly to find a permanent solution to this problem.

        Please provide a written response to this management advisory within 30 days of receipt.
The response should detail the Department’s action plan for implementing our recommendations,
as well as targeted completion dates and title(s) of officials responsible for implementation. We
will include information contained in this management advisory in our Semiannual Report to
Congress. If you have any questions, please contact me at 202-208-5745.




                                                3
cc:   Chief of Staff, U.S. Department of the Interior
      Deputy Secretary, U.S. Department of the Interior
      Acting Deputy Assistant Secretary, Natural Resources Revenue
      Deputy Assistant Secretary for Budget, Finance, Performance, and Acquisitions
      Director, Office of Natural Resources Revenue




                                             4
                                    


            Report Fraud, Waste,                                      
            and Mismanagement
                                       
                  Fraud, waste, and mismanagement in
                  government concern    everyone: Office
                of Inspector General staff, Departmental
                 employees, and the general public. We
                    actively solicit allegations of any
                           and wasteful practices, fraud,
                inefficient
                     and mismanagement related to
               
                 Departmental or Insular Area programs
                                                         
                     and operations.  You can report
                    allegations to us  in several ways.
                                        
                                    
                                    
     By Mail:           U.S. Department of the Interior  
                        Office of Inspector General  
                        Mail Stop 4428 MIB  
                        1849 C Street, NW  
                        Washington, D.C. 20240  
      
     By Phone:          24-Hour Toll Free                               
                                                            800-424-5081
                        Washington Metro Area               202-208-5300
                                                                        
      
     By Fax:            703-487-5402
      
     By Internet:       www.doioig.gov
  
                                                                            
